HHS/OIG, Audit - "Review of East Winston Community Development Corporation's Administration of Office of Community Services Discretionary Grant No. 90EE0353/01," (A-04-02-00010)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of East Winston Community Development  Corporation's Administration
of Office of Community Services Discretionary Grant No. 90EE0353/01," (A-04-02-00010)
August 22, 2002
Complete Text of Report is available in PDF format
(2.13 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
At the request of the Department's Office of Community Services
(OCS), we performed a limited-scope review of the East Winston Community Development
Corporation's (EWCDC) administration of an OCS Economic Development Grant.
The purpose of the grant was to create a community-owned, cafeteria-style restaurant
known as the EastSide Cafeteria Project and to provide employment to
30 individuals in this community.  Our final report points out that EWCDC
did not meet the grant objectives.  Also, grant funds were not used to
renovate the proposed cafeteria site nor to purchase the equipment for the cafeteria's
operations as outlined in its OCS-approved grant.  We recommended that
OCS recover the $250,000 of grant funds and that EWCDC evaluate its ability
to properly control and account for federal funds before submitting future Department
of Health and Human Services (HHS) grant proposals.  The EWCDC officials
generally disagreed with our findings and recommendations.  Primarily,
the EWCDC officials did not agree that the expenditure of OCS grant funds was
restricted for use in renovating the proposed cafeteria site and purchasing
equipment for the cafeteria's operation.  The EWCDC officials believe that
it was proper to expend the grant funds for any purpose that was related to
the overall cafeteria project.